HARRIS DOWELL FISHER & YOUNG, L.C.
ATTORNEYS AND COUNSELORS AT LAW
15400 SOUTH OUTER FORTY, SUITE 202
ST. LOUIS, MISSOURI 63017-2063
www.hdfh.com
MICHAEL F. HARRIS
mfh@harrisdowell.com

(636) 532-0300 EXT. 314
(636) 532-0246 (FAX)

LICENSED IN MISSOURI
AND ILLINOIS

October 27, 2020
VIA EMAIL (DBICKELL@SUPREMECOURT.GOV)
Clerk, Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543-0001
Re:

Roderick Carter v. CPC Logistics, Inc., et al.
Case No. 20-5828

Dear Clerk:
This letter is to request a thirty (30) day extension of time for Respondents CPC
Logistics, Inc. and CPC Medical Products, LLC to file their Response to Petitioner’s
Petition for Writ of Certiorari in the above-referenced case. I am sending this request by
mail as I am not yet admitted and approved for e-filing. I am in the process of submitting
my Application for Admission to Practice in front of the Supreme Court.
The Court docketed Petitioner’s Petition for Writ of Certiorari on September 28,
2020. The current due date for our response is October 28, 2020. Because of the work
load of our office, and the additional time needed to print and bind Respondents’
response in compliance with the Supreme Court Rules, Respondents request an extension
of time in which to file their Response. This delay should not prejudice the Court or
either of the parties.
For the foregoing reasons, Respondents request a thirty-day extension for filing
their response to Petitioner’s Petition for Writ of Certiorari, with a new due date of
Friday, November 27, 2020.
Respectfully submitted,
HARRIS, DOWELL, FISHER & YOUNG, L.C.
/s/ Michael F. Harris
Michael F. Harris

